No. 20-1386

IN THE
SUPREME COURT OF THE UNITED STATES

Dale Sawyer Eisete

-Petitioner
v.
The Estate of Joseph Brodie Smith
Respondent

On Petition for a Writ of Certiorari for the State of New Hampshire
9th Circuit - Probate Division Nashua and the State of New Hampshire

Supreme Court

PETITION FOR REHEARING

Date Sawyer Elsete
90 Honeypot Road
West Haven, CT 06516
203 932 8454 Home Telephone Number
203 684 4018 Celt Telephone Number

KECEEVI..
JUL - 7 2&i
OFF!CE OF THF

• '’vr-^iviE coup

-■■•!<

TABLE OF CONTENTS

PAGE

TABLE OF CONTENTS

ithru ii

TABLE OF AUTHORTfES

PETmON FOR REHEARING

1

GROUNDS FOR REHEARING

Ithru 3

CONaUSION

3

CERTIFICATE OF PRO SE

4

i

STATUES

17C 2221.2 (1917) Minnesota

lthru 2

LAWS

Massachusetts Adoption of Children Act of 1857

ii

2 thru 3

PETITION FOR REHEARING

Pursuant to Rule 44.2, Dale Sawyer Eisele respectfully
petitions for a hearing of the Court's order denying a certiorari
in this case
GROUNDS FOR REHEARING
The Petitioner is raising other substantial grounds not
previously presented. Pursuant to Rule 44.2 which pertains to
rehearing of certiorari it states "other substantial grounds not
previously presented."
The original certiorari petition in this case presented
"General Statues of Minnesota",a compilation of laws froml915
-17. This was the first law mandating social investigations of all
adoptions including home studies and providing for all confidentally of adoption records. It also stated "Consent when nec­
essary".
" Except as hearin provided no adoption of a minor
shall be permitted without consent of his parents
but the consent of a parent who has abandoned the
child or who cannot be found, or who is insane or
otherwise incapacitated from giving, such consent,
who has lost custody of the child through divorce pr­
oceeding or order of juvenile court, may be dispen­
sed with and consent may be given by the guardian,

1

if there be one or if there be no guardian, by thestate board of control."
"In case of illegitimacy the consent of the mother alone shall
suffice.”
The substantial grounds that were not previously prese­
nted was the Massachusetts Adoption of Children Act of 1857.
The Minnesota Law of 1915-1917 was the first law mandating
social investigation and "Consent when Necessary". It went
one step further it stated " In case of illegitimacy the consent
of the mother alone shall suffice." In the Massachusetts Adop­
tion of Childrens Act of 1857 it does not mention illegitimacy.
Gladys Irene biological parents were not married. The Childrens
Act of 1857 states
"If both or either of the parents of such child shall
be living, they or the survivor of them, as the case
maybe shall consent in writing to such adoption,
if nether parent be living, such consent may be
given by the legal guardian of such child, if there
be no legal guardian no father nor mother, the next
of kin of such child within the state, may give such
consent and if there be no such next of kin, the jud­
ge of probate may appoint some discreet and suit­

2

able person to act in the proceeding as the next fr­
iend of such child and give or withhold such conse­
nt."
The Massachusetts Adoption of Children Act of 1851
is clear "if both or either of the parents of such child shall be
(iving,they or the survivor of them".

Gladys Irene biological par-

entswere both Jiving as the petitioner's affidavit states which
was sent to the court.
On the Petition for a Writ of Certiorari, it is exampled how
the laws of today were used and not the Massachusetts Adopt­
ion of Children Act of 1851 stating "they or the survivor of them".
A new decision by this Court would dearly establish the
appropriate period of retroactively. This decision could, change
the result of this proceeding.
CONCLUSION

This petition for rehearing should be granted.

3

CERTIFICATE OF PROSE
f hereby certify that this petition for rehearing is present­
ed in good faith and not for delay, and that it is restricted to the
grounds specified in Supreme Court Rule 44.2.

Dale Sawyer Eisele

< y
Lacey L. Bicknell
1
NOTARY PUBLIC
3
State of Connecticut
1
My Commission Expires 5/3/2023
...................................................... ...

4

